           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  INDIVIDUAL REPRESENTATIVE PAYEES
       FOR THE SOCIAL SECURITY
        ADMINISTRATION IN THE
            DALLAS REGION

 February 2005          A-06-05-15053




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   February 11, 2005                                                         Refer To:

To:     Horace Dickerson
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the Dallas
        Region (A-06-05-15053)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance (OASDI) beneficiaries and Supplemental Security Income (SSI)
        recipients when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interest; and preference is normally given to a parent, legal guardian, spouse or other
        relative of a beneficiary.2 SSA considers payments to a representative payee to have
        been used for benefit of the beneficiary if they were spent on the beneficiary’s current
        maintenance—which includes the costs incurred in “…obtaining food, shelter, clothing,
        medical care, and personal comfort items.”3



        1
         The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
        3
            20 C.F.R. §§ 404.2040(a) and 416.640(a).
Page 2 – Horace Dickerson

This review is part of a nation-wide review of individual representative payees serving
14 or fewer beneficiaries. There are approximately 4.3 million of these types of
representative payees serving 5.5 million beneficiaries. To provide statistically valid
nation-wide projections, we selected 275 representative payees for review, of which
36 were in the Dallas Region. These 36 representative payees received and managed
approximately $26,661 in monthly benefits for 51 beneficiaries. Appendix B contains
the Scope and Methodology of our review.

RESULTS OF REVIEW
We confirmed the existence of the 51 beneficiaries in the care of the 36 representative
payees in the Dallas Region. We also determined, through personal observation and
interviews, that beneficiaries' food, clothing and shelter needs were being met.4 For the
51 beneficiaries, nothing came to our attention that would lead us to believe the
representative payees did not use the Social Security benefits received for the
beneficiaries’ needs.

SSA staff accompanied us on our visits with the representative payees and
beneficiaries. SSA staff participation provided them an opportunity to identify and
address issues that had not been reported to SSA. In 7 of the 36 visits, issues surfaced
for further review by SSA. For example, some beneficiaries failed to report sources of
income. SSA staff took action to address these issues or stated they would follow up on
all identified issues. These are discussed below.

Representative Payees Did Not Report Events to SSA that Affected Beneficiaries'
Entitlement or Benefit Amount

One of a representative payee’s primary responsibilities is to notify SSA of any event
that would affect the amount of benefits the beneficiary receives or the beneficiary’s
right to receive benefits.5 We determined that five representative payees did not timely
notify SSA of events that affected beneficiary eligibility or benefit amount; three may
have involved overpayments, one may have involved an underpayment, and one may
not have had an overall impact on the family’s maximum benefit.

    Case 1 - In Little Rock, Arkansas, a representative payee informed us that the
recipient earned extra money baby-sitting. The additional income had not been
reported to SSA and potentially resulted in some improper payments. Depending on
the amount of extra money earned, the recipient’s income could reduce payments by up
to the total payment amount of $564. The local field office is following up on the impact
of the unreported income.



4
  Of the 51 beneficiaries, 47 had representative payees whose relationship was mother, father, daughter,
or spouse. Three beneficiaries had representative payees who were other relatives, and one beneficiary
had a representative payee who was not a relative.
5
 SSA Program Operations Manual System (POMS), GN 00502.113(C)(1). - Interviewing the Payee
Applicant and SI 02301.005(B)(2). – SSI Posteligibility - Recipient Reporting.
Page 3 – Horace Dickerson

    Case 2 - In New Orleans, Louisiana, we met with a representative payee who was
managing $1,692 in monthly benefits for her three disabled children. It was determined
that she had self-employment income that she had not reported to SSA. The
representative payee told the SSA representative that she could not answer questions
related to this income until she reviewed her records. This unreported income could
affect benefit amounts or eligibility. The SSA field office is following up on this matter.

    Case 3 - In Keithville, Louisiana, a representative payee (mother of a 2-year-old SSI
recipient) did not disclose she was married to, and living with, the child’s father. This
previously undisclosed condition could reduce the $391 per month paid to this recipient.
An SSA representative from the Shreveport Field Office has initiated a redetermination
of benefits based on this new information.

    Case 4 - In Santa Domingo Pueblo, New Mexico, a representative payee (mother of
a 13-year-old SSI recipient) did not report to SSA she had been unemployed for nearly
1 year. Wages from her previous employment resulted in a reduction of the child’s
monthly benefit amount from $564 to $376. Consequently, the child may have been
underpaid during the period of her mother’s unemployment. The SSA representative
will follow up on this matter.

   Case 5 - In Austin, Texas, a 2-year-old child in the household was eligible for OASDI
benefits under the retired father’s account. The other children in the household were
receiving OASDI benefits; however, the 2-year old had never been established on the
record. The two children receiving benefits were receiving a combined monthly total
equal to the family maximum limit for auxiliaries of $657 per month ($328 each per
month). With the third child’s eligibility, each child would be entitled to one-third of the
$657 per month. The SSA representative will follow up on this issue.

Overdue Continuing Disability Reviews

After an individual is determined to be disabled, SSA is required by statute6 to
periodically determine whether the individual is still disabled. To carry out this statutory
requirement, a continuing disability review is conducted at selected intervals.7

In Baton Rouge, Louisiana, a woman was a representative payee for her two disabled
children and was also an SSI recipient. During our interview, we determined the mother
and one child were overdue for a continuing disability review. The SSA field office
initiated continuing disability reviews for all three recipients. There is no monetary effect
unless a recipient is deemed ineligible resulting from the continuing disability review.

Representative Payee No Longer Needed

During our interviews, we identified two instances (Little Rock, Arkansas, and
Plaucheville, Louisiana) where, after discussion with the representative payees,

6
    The Social Security Act §§ 221(i) and 1633, 42 U.S.C. §§ 421(i) and 1383b.
7
    SSA POMS DI 28001.001(A) - What is a Continuing Disability Review (CDR)?
Page 4 – Horace Dickerson

beneficiaries, and SSA field office representatives, it was determined the beneficiaries
were capable of managing their own funds. Consequently, in both instances, SSA staff
took action to remove the representative payees from the record.

CONCLUSION AND RECOMMENDATIONS
We determined that all 51 beneficiaries existed and were in the care of their
representative payee. In addition, based on our observations, the individuals' food,
clothing and shelter needs appeared to be met. Our visits with the payees and
beneficiaries provided the local SSA staff the opportunity to address other issues facing
the payees and beneficiaries—thus contributing to SSA’s goal for delivering high quality,
citizen-centered service. Some issues were identified for SSA’s attention that may have
had an impact on the benefit eligibility amounts. SSA initiated action on all identified
issues. Accordingly, we recommend that the Dallas Regional Office:


1. Complete its determination of the impact of unreported income to beneficiary
   payments.
2. Complete its determination on whether the deemed income, if any, from the
   unreported marriage impacts the payment to the recipient.
3. Complete its determination of the impact to benefit amounts resulting from reduced
   income.
4. Complete its determination of whether a child should be added as an auxiliary
   beneficiary on the retired father’s account.
5. Ensure CDRs for the Baton Rouge, Louisiana, case are completed.



AGENCY COMMENTS
SSA agreed with our recommendations and took action to address the issues raised in
the report. See Appendix D for the full text of SSA’s comments.

OTHER MATTERS
We found that seven addresses listed in SSA records were incorrect. Five of these
addresses were wrong for both the representative payee and the beneficiary and the
other two were wrong for the beneficiary only. We reported these errors to Dallas
Region staff, who took action to correct SSA records.




                                                  S
                                                  Patrick P. O'Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
CDR      Continuing Disability Review
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                 Appendix B

Scope and Methodology
Our population included all individual representative payees within the contiguous
48 States serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our
objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures for
    monitoring representative payees and their responsibilities for the beneficiaries in
    their care.

•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004 meeting our selection criteria.

•   Selected a random sample of 275 representative payees nationwide. We are
    issuing a separate report on the nation-wide results, as well as separate reports for
    each of the 10 SSA regions.1

For the 36 representative payees in the Dallas Region, we
•   verified the identities of 36 representative payees and 51 beneficiaries they served;
•   interviewed 36 representative payees;
•   interviewed and observed 50 beneficiaries; and
•   visited and observed the living conditions of 51 beneficiaries.

We performed our review in Arkansas, Louisiana, New Mexico, and Texas from July to
October 2004. We conducted our review in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




1
  SSA OIG, Nationwide Survey of Individual Representative Payees for the Social Security Administration
(A-13-05-25006), Individual Representative Payees for the Social Security Administration in the Boston
Region (A-01-05-15048), Individual Representative Payees for the Social Security Administration in the
New York Region (A-02-05-15049), Individual Representative Payees for the Social Security
Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees for the
Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative Payees
for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual Representative
Payees for the Social Security Administration in the Dallas Region (A-06-05-15053), Individual
Representative Payees for the Social Security Administration in the Kansas City Region (A-07-05-15054),
Individual Representative Payees for the Social Security Administration in the Denver Region
(A-07-05-15055), Individual Representative Payees for the Social Security Administration in the San
Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
                                                                        Appendix C

Sampling Methodology
To identify the nation-wide population, we obtained a data extract from the Social Security
Administration’s Representative Payee System of all individual representative payees who
had 14 or fewer beneficiaries in their care as of May 20, 2004. This population was
5,380,635 representative payees who served 6,818,696 beneficiaries.

From this population, we excluded representative payees who had any of the following
characteristics:

•   resided outside of the 48 contiguous States;
•   served only as their own representative payee as reflected in the Representative Payee
    System;
•   had only beneficiaries who were in non-current pay status;
•   had an invalid State code or military address; or
•   managed total funds of $50 or less each month.


This reduced the population to 4,306,779 representative payees with 5,520,303 beneficiaries.
From this population, we randomly selected 275 representative payees for review. Our
sample included 36 representative payees in the Dallas Region. Findings reported in the
Dallas Region report will be reported as part of the national roll-up report.
                  Appendix D

Agency Comments
                                            SOCIAL SECURITY


MEMORANDUM

Date:      February 1, 2005

To:        Office of Inspector General

From:      Horace Dickerson
           Dallas Regional Commissioner

Subject:   Individual Representative Payees for the Social Security Administration in the Dallas Region
           (A-06-05-15053) - INFORMATION


           We appreciate the Office of Inspector General’s efforts in conducting this review and the
           opportunity to comment on the report content and provide recommendations.

           Please let us know if we can be of further assistance.

           If you have any questions, please call Lottie Dotson at 214-767-4224, in Management and
           Operations Support, Center for Programs Support.

           Attachment:
           Dallas Region Response




                                                            D-1
COMMENTS OF THE DALLAS REGION SOCIAL SECURITY ADMINISTRATION
(SSA) ON THE OFFICE OF THE INPECTOR GENERAL (OIG) DRAFT REPORT,
“REVIEW OF INDIVIDUAL REPRESENTATIVE PAYEES FOR THE SOCIAL
SECURITY ADMINISTRATION IN THE DALLAS REGION (A-06-05-15053)”


Thank you for the opportunity to review and comment on the subject draft report. Our responses to
the specific recommendations are provided below.

The objective of the review was to confirm that beneficiaries in the care of representative payees
existed; and, through personal observation and interviews, to determine whether the beneficiaries’
food, clothing and shelter needs were being met.

The review was part of a nation-wide review of individual representative payees serving 14 or fewer
beneficiaries. To provide statistically valid nation-wide projections, 275 representative payees were
selected for review, of which 36 were in the Dallas Region. These 36 representative payees
received and managed approximately $26,661 in monthly benefits for 51 beneficiaries.

During the review, OIG confirmed the existence of all 51 beneficiaries in the care of the 36
representative payees. Through personal observation, they determined that all 51 beneficiaries’
food, clothing and shelter needs were being met and nothing came to their attention to indicate the
representative payees did not use the Social Security benefits for the beneficiaries’ needs. SSA staff
accompanied OIG on the visits with the representative payees and beneficiaries to identify and
address issues that had not been reported to SSA.

Recommendation 1

Complete its determination of the impact of unreported income to beneficiary payments.

Dallas Region Comment

Corrective action has been completed. In Little Rock, AR, the representative payee informed OIG
that the SSI recipient earned extra money by baby-sitting. The SSR for XXX-XX-XXXX was
updated 09/28/04 to reflect this income.

Recommendation 2

Complete its determination on whether the deemed income, if any, from the unreported marriage
impacts the payment to the recipient.

Dallas Region Comment

In Keithville, LA, the representative payee did not disclose she was married to and living with the
child's father. The representative payee was interviewed in August 2004 and the field office
determined that the child's father does not live in the household. No further action is required.



                                                 D-2
Recommendation 3

Complete its determination of the impact to benefit amounts resulting from reduced income.

Dallas Region Comment

Corrective action has been completed. In Santa Domingo Pueblo, NM, the representative payee did
not report that she had been unemployed for nearly a year. The SSR for XXX-XX-XXXX was
updated 12/2004 to increase the benefit amount for the recipient effective 01/2005 and to issue an
underpayment in the amount of $4645.66 for the retroactive period.

Recommendation 4

Complete its determination of whether a child should be added as an auxiliary beneficiary on the
retired father’s account.

Dallas Region Comment

Corrective action has been completed. In Austin, TX, an application for child’s benefits for a 2-
year old child in the household had not been filed. An auxiliary application was processed via EC
12/07/04 on claim number XXX-XX-XXXX.

Recommendation 5

Ensure CDRs for the Baton Rouge, Louisiana case are completed.

Dallas Region Comment

All necessary actions have been completed. In Baton Rouge, LA, an SSI recipient and her two
disabled children were overdue for a Continuing Disability Review (CDR). The CDR for the
representative payee (XXX-XX-XXXX) and one child (XXX-XX-XXXX) was cleared to DDS
01/24/05. The record shows the other disabled child (XXX-XX-XXXX) is not scheduled for a
CDR until 08/2006.



[Social Security numbers were included in the comments above. For privacy reasons, we
deleted them from the text.]




                                                D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

   Joshua Campos, Auditor

   Wanda Renteria, Auditor

   Clara Soto, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-05-15053.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
